September 29, 2010

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Management of Mail Transport
         Equipment - National Analysis (Report Number NL-AR-10-009)

This report presents the results of our self-initiated audit focusing on the nationwide
management of Mail Transport Equipment (MTE) program (Project Number
10XG032NL000). The objective was to assess the effectiveness of the U.S. Postal
Service’s management and control of MTE from a headquarters perspective. This audit
addresses financial and operational risks. See Appendix A for additional information
about this audit.

MTE are containers of various types used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, its mailers, and
other external customers. The various types of MTE include pallets, containers with
wheels, trays, and mailbags. The Postal Service loans MTE to mailers and other
external customers as a courtesy to convey mail to and from Postal Service
installations. Postal Service policy requires routine audits of mailers and Postal Service
facilities to ensure that MTE is not misused or misappropriated and the quantity on-hand
is adequate.

Postal Service Headquarters is responsible for establishing policy for managing all
aspects of MTE program, and the Postal Service’s eight geographical areas are
responsible for ensuring compliance with all aspects of the MTE policy at the field level.
We estimate the Postal Service purchased about $688 million in MTE over the past
12 years.1




1
 The $688 million in MTE purchases was reconstructed from limited Postal Service system data and represents the
best estimate we were able to derive from the limited data.
Management of Mail Transport Equipment -                                        NL-AR-10-009
 National Analysis


Conclusion

Although the Postal Service has taken a number of steps to enhance its management of
MTE over the last 2 years, we found the following opportunities for Postal Service
Headquarters to more effectively manage and control MTE nationwide. Specifically,
management could:

      Provide updated, comprehensive policy, guidance, and oversight that support
       current MTE operational requirements.

      Develop a nationwide comprehensive inventory system for identifying and
       tracking all MTE throughout the network, including tracking to and from mailers,
       and for effectively determining annual MTE purchase requirements.

      Ensure that areas have sufficient resources to monitor the management of MTE
       in the field or at mailers and to ensure appropriate compliance with national MTE
       requirements.

These systemic issues contributed to conditions identified in our prior MTE reviews in
the Pacific and Eastern areas and impact MTE operations in all Postal Service areas.
Specifically, in our prior reviews, we concluded the following:

      MTE inventories were inaccurate because management based them on
       estimated “on-hand counts” and did not include equipment from some plants or
       any major mailers and other external customers.

      Although plants generally kept records of MTE distributed to mailers and
       customers, they did not have visibility over the MTE flow once it left the plants
       and did not use the records for managing, tracking, or reconciling MTE and
       establishing accountability.

      Plant managers did not always provide sufficient priority, resources, training, and
       oversight to effectively manage MTE.

      Area management did not assign sufficient resources to monitor MTE activities
       and ensure compliance with all Postal Operations Manual (POM) and Standard
       Operating Procedures (SOP) requirements.

See Appendix B for our detailed analysis of this topic.

If comprehensive controls over MTE had been in place at facilities and mailers, we
estimate the Postal Service could have avoided spending about $14.5 million annually
($29 million total) for MTE in fiscal years (FYs) 2008 and 2009. In addition, if
comprehensive controls are established, the Postal Service could better ensure that




                                             2
Management of Mail Transport Equipment -                                                              NL-AR-10-009
 National Analysis


only needed MTE is purchased in the future. See Appendix C for our calculation of the
questioned costs.

Further, we estimate about $897 million in MTE assets are at risk of loss, theft, and
misuse because of the control weaknesses. These conditions also present a potential
danger to public safety and security2 and reflect poorly on the Postal Service’s brand
and public image.3 See Appendix D for our calculation of the assets at risk.

Management Actions

Over the last 2 years, Postal Service Headquarters has been assessing and exploring
initiatives and taking some action to address nationwide, systemic MTE issues,
including the following. Many of these actions are still in process.

        Exploring technological solutions such as an automated MTE management
         system.4

        Assessing the need to reinstitute on hand volume counts5 to provide the Postal
         Service with enhanced visibility of MTE at facilities and mailers until an
         automated MTE management system is fully developed and deployed.

        Implemented an initiative to seed plastic pallets with Global Positioning Satellite
         technology, which has tracked the movement of Postal Service pallets from
         mailers to others with no business relationship with the Postal Service.

        Initiated an equipment recovery program in coordination with the U.S. Postal
         Inspection Service.

        Educated mailers and Postal Service plants by disseminating posters and
         newsletters and establishing a 1-800 number and national e-mail contact for the
         recovery of MTE.




2
  The Postal Service is a recognized presence in cities and communities nationwide and enjoys high public trust. A
concern with the widespread unauthorized use and misappropriation of MTE is that criminal elements may use this
Postal Service equipment to take advantage of the high public trust, including use of MTE for disguising contraband
or other dangerous goods as mail.
3
  The essence of the Postal Service brand is customer perception and the control and management weaknesses
above could pose a high risk for the public to negatively perceive the Postal Service’s ability to properly manage,
account for, and protect its assets.
4
  One option being explored is the MTE On-line Ordering (MTEOR) system and a more recent option is the Solution
for Enterprise Asset Management (SEAM) system.
5
  Weekly inventory counts were part of the Equipment Inventory Reporting System (EIRS).




                                                         3
Management of Mail Transport Equipment -                                                              NL-AR-10-009
 National Analysis


We recommend that the vice president, Network Operations:6

1. Further develop, update, and reinforce national Mail Transport Equipment (MTE)
   policies and procedures contained in the Postal Operations Manual and the Postal
   Handbook PO-502, Container Methods, which address MTE inventory and
   accountability controls, including validating customer MTE needs as well as tracking
   and reconciling MTE loaned to mailers and other external customers.

2. Continue pursuing implementation of a planned automated Mail Transport
   Equipment (MTE) management system and ensure its functionality for inventory and
   accountability processes and for enhancing the Postal Service’s visibility into MTE
   internally and at mailers.

3. Reestablish an on-hand Mail Transport Equipment (MTE) volume count process,
   both internally and externally, until an automated MTE management system is fully
   developed, deployed, and operational.

4. Ensure that area Distribution Networks Offices have appropriate resources assigned
   responsibly to monitor and manage Mail Transport Equipment, and maintain
   compliance with Postal Operations Manual requirements.

Additionally, we recommend the vice president, Network Operations, coordinate with the
vice president, Supply Management to:

5. Document the current process for identifying annual, routine Mail Transport
   Equipment (MTE) purchase requirements, and ensure the process includes Mail
   Transport Equipment Service Center network information and facility and mailer
   inventory data, to ensure that only the necessary amount of MTE is purchased.

Management’s Comments

Management generally agreed with our findings and recommendations. Management
stated they will re-establish equipment inventory counts for Postal Service facilities by
January 1, 2011, and will update MTE policies and procedures, to include addressing
the roles and responsibilities of local, area, and headquarters, by the end of the second
quarter in FY 2011. Management also stated they will assess how best to implement an
on-line ordering and fulfillment system solution for mailers by the end of the second
quarter in FY 2011. Finally, management stated the addition of EIRS data will enhance
the process to determine purchased MTE requirements, and they will determine
whether to pursue an external component of on-hand inventory reporting by the end of
the second quarter in FY 2011. Management did not agree with the methodology used
to determine the potential monetary impact reported for MTE purchases but did agree

6
  The low individual cost of MTE has been a factor in the decisions made by the Postal Service to limit dollars spent
in the controls over these items. The controls implemented based on these recommendations should be cost effective
and consider MTE leakage.




                                                         4
Management of Mail Transport Equipment -                                        NL-AR-10-009
 National Analysis


that increased inventory visibility will provide greater control of MTE assets. See
Appendix F for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and management’s corrective actions
should resolve the issues identified in the report. Regarding management’s comments
on our monetary impacts, we used the best information available, given data limitations,
in calculating the potential monetary impact for unneeded MTE purchases. Further,
management did not provide any alternative methodology or estimates, and we believe
our estimates are still valid. We will continue to work with management to reach
agreement on monetary impacts in closing the significant recommendations.

The OIG considers all recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Steven J. Forte
    Cynthia F. Mallonee
    Mark A. Guilfoil
    Susan M. Witt
    James R. Hardie
    Rajesh K. Handa
    Trent K. Ensley
    Corporate Audit and Response Management




                                             5
Management of Mail Transport Equipment -                                               NL-AR-10-009
 National Analysis


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

MTE consists of various types of containers used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, its mailers, and
other external customers. The various types of MTE include:

      Pallets made of plastic, wood, or chipboard.
      Containers with wheels of varied sizes, shapes, and materials (known as ‘rolling
       stock’).
      Trays of varying sizes for letters and flats (known as ‘tubs’).
      Mailbags (known as ‘sacks’).




                   Flat Tray or Tub                                  Plastic Pallets


Individual MTE items cost the Postal Service anywhere from less than $1 to about
$1,400. Generally, the useful life of MTE will vary considerably based on type, and
some MTE, such as rolling stock, can be in service for more than 20 years.




                                            Rolling Stock at
                            Philadelphia Processing and Distribution Center
                                     (P&DC) on November 2, 2009


The Postal Service expenses (rather than capitalizes) MTE in accordance with its
accounting policies and practice. Additionally, MTE has been historically viewed as
being consumable or expendable and provided to mailers and other external customers
as a courtesy. The Postal Service does not carry MTE inventory as an asset for
financial reporting purposes and does not know the true size or value of its MTE




                                                  6
Management of Mail Transport Equipment -                                                            NL-AR-10-009
 National Analysis


inventory. However, we estimate the value of the Postal Service’s current on-hand MTE
inventory nationwide at approximately $1.2 billion.

MTE Management. Postal Service Headquarters, under the direction of the vice
president, Network Operations, is responsible for establishing policy for managing all
aspects of MTE, covering the operation, transportation, distribution, delivery, inventory,
storage, and reporting of MTE. Postal Service Headquarters manages MTE primarily
through the MTESC network, which centralizes MTE processing, repair, and
distribution. The MTESC network is a centrally managed system of contractor-operated
service centers7 designed to supply pallets, tubs, mailbags, and other MTE to mail
processing facilities and certain large customers nationwide. The MTESC network
delivers MTE to users with dedicated transportation, recovers equipment that is no
longer needed or serviceable, and then processes it for inventory or redistribution.




                                   Hampers staged for repair work at the Los
                                     Angeles MTESC on October 28, 2008

Under the national MTE policy, the Postal Service’s geographical areas, through their
Distribution Networks Offices (DNOs), are responsible for ensuring compliance with all
aspects of the Postal Service’s MTE policy at the field level. The area DNOs are
required to provide guidance to plants, and each plant is responsible for the daily
management of MTE at its facility, ensuring compliance with all national MTE policies.
See Appendix E for a flowchart detailing the movement of MTE within the Postal
Service.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our self-initiated audit was to assess the effectiveness of the Postal
Service’s management and control of MTE from a headquarters perspective.

To accomplish our objective, we assessed the management and control weaknesses
identified in our audits of the Pacific and Eastern areas to identify issues, actions, and

7
  At inception, the MTESC network consisted of 23 service centers. In FY 2010, the Postal Service implemented a
reengineering plan to close eight of the 23 MTESCs to reduce the overall cost of MTE handling. To date, seven of
eight MTESCs scheduled for closure have been closed, with the last remaining service center scheduled for closure
in September 2010. An audit addressing the consolidation of the MTESC network is planned for FY 2011.




                                                        7
Management of Mail Transport Equipment -                                                             NL-AR-10-009
 National Analysis


direction needing nationwide attention, including updating the MTE policies; allocating
necessary resources to the field; and gaining visibility into MTE inventory outside of the
MTESC network (which covers facilities, MTE in transit, and MTE at mailers and other
external customers). We concluded the control weaknesses and ineffective
management issues identified in the Pacific and Eastern areas were systemic and
impacted all Postal Service areas. Therefore, we determined that additional Postal
Service area audit work was unnecessary to address the issues nationwide.

We interviewed representatives from headquarters’ Network Operations (Logistics –
MTE) and Supply Management (MTE and Spare Parts). In addition, we reviewed
national MTE policies and procedures and other documents, including the POM and the
Postal Handbook PO-502. We also assessed the status and functionality of the MTEOR
system, which is currently being considered to manage MTE. Additionally, we reviewed
MTE purchases from FY 1999 to present to calculate an estimated on hand count of
MTE by type, adjusting for useful life, condemnation and other variables.8 Further, we
estimated current MTE “rolling stock” inventory, much of which was purchased before
FY 1999, based on scanning of Surface Visibility barcodes for a 12-month period.

We assessed the reliability of the computer-generated purchase data used in our
analyses by reviewing existing information about the data. We determined that the data
were sufficiently reliable for the purposes of this report even though we noted control
weaknesses that constrained our work. For example, because there is no inventory
system at plants, there was no way to readily determine the universe of MTE throughout
the Postal Service. Further, our need to reconstruct an inventory going back 12 years
made it difficult to obtain complete data files supporting MTE purchases; the files
contained a large amount of records that were not organized by MTE type or by fiscal
year purchased; and the files contained duplicate records of some MTE. Additionally,
the Postal Service does not require that purchase data be labeled with MTE category
classification numbers; therefore, we had to obtain additional clarification from
headquarters for a number of MTE purchases. However, we compensated for control
weaknesses and data limitations by applying alternate audit procedures including
calculation and evaluation of unit costs and discussions with responsible officials.

We conducted this performance audit from March through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 31, 2010, and included their
comments where appropriate.

8
  During this audit, we gathered information on the cost and use of various cardboard containers used at Network
Distribution Centers (NDCs) and P&DCs. However, we will address cardboard issues in a subsequent audit given
that cardboard is more perishable than most MTE and has distinct issues and challenges.




                                                         8
  Management of Mail Transport Equipment -                                                               NL-AR-10-009
   National Analysis



  PRIOR AUDIT COVERAGE

  As reflected in the table below, the U.S. Postal Service Office of Inspector General
  (OIG) issued three audit reports since December 2008 addressing MTE management.
  Two of these audits covered the effectiveness of the Postal Service’s management and
  control of MTE. We found the identified control weaknesses in the areas were caused,
  in part, by the lack of direction and policy from headquarters; the lack of a nationwide
  comprehensive inventory system for identifying and tracking all MTE; and insufficient
  MTE resources allocated to the area level.

                             Report              Final            Monetary
      Report Title           Number           Report Date          Impact                     Report Results
Management of Mail         NL-AR-10-004         3/17/2010                    $0     The Eastern area’s effectiveness was
Transport Equipment –                                                               limited over the management and
Eastern Area                                                                        control of MTE. Area officials did not
                                                                                    always ensure adequate controls over
                                                                                    inventory and accountability processes
                                                                                    required by national MTE policies and
                                                                                    procedures. Management agreed with
                                                                                    our findings and recommendations.
Management of Mail         NL-AR-10-001        10/22/2009                    $0    The Pacific area’s management and
Transport Equipment –                                                              control of MTE was ineffective. The
Pacific Area                                                                       area did not always ensure compliance
                                                                                   with inventory and accountability
                                                                                   processes nor ensure the safeguarding
                                                                                   of assets. Management generally
                                                                                   agreed with our findings and
                                                                                   recommendations.
Radio Frequency            DA-AR-09-002        12/24/2008          $127 million    The Postal Service has opportunities to
Identification                                                                     adopt Radio Frequency Identification
Technology: Asset                                                                  Technology (RFID) to manage MTE
Management                                                                         inventories and minimize long-standing
                                                                                   pallet losses. Management agreed with
                                                                                   our findings and recommendations.9




  In addition, the Postal Service has previously raised concerns and initiated MTE
  recovery efforts stemming from inadequate MTE inventory, accountability, and
  safeguarding. For example:

           The Postal Service estimates 3.5 million plastic pallets (with an estimated value
            of about $70 million) leaked from its network nationwide during the past several
            years. According to officials, these pallets were unaccounted for over the last few
            years and are missing from the nationwide network.



  9
    The Postal Service is no longer exploring RFID technology for pallets because of the Postal Service’s current
  financial situation.




                                                            9
Management of Mail Transport Equipment -                                    NL-AR-10-009
 National Analysis


      Two Equipment Recovery Projects in November 2008 and November 2009
       coordinated between the Postal Service and the Inspection Service resulted in
       the identification and recovery of more than 293,000 pieces of MTE nationally
       valued at about $3.2 million – most of which involved unauthorized use of MTE at
       external customers or unauthorized possession by other parties, such as
       recyclers or air cargo warehouses.




                                           10
Management of Mail Transport Equipment -                                                                 NL-AR-10-009
 National Analysis


                                  APPENDIX B: DETAILED ANALYSIS

Postal Service Headquarters could more effectively manage and control MTE
nationwide. We determined that the Postal Service has not:

        Provided updated, comprehensive policy, guidance, and oversight that support
         current MTE operational requirements.

        Developed a nationwide comprehensive inventory system for identifying and
         tracking all MTE throughout the network and at mailers and for determining
         annual MTE purchase requirements.

        Ensured that areas have sufficient resources to monitor the management of MTE
         in the field or at mailers and to ensure appropriate compliance with national MTE
         requirements.

We determined that these systemic issues contributed to conditions identified in our
prior MTE reviews in the Pacific and Eastern areas and impact MTE operations in all
Postal Service areas. We also determined that if comprehensive controls over MTE had
been in place at facilities and mailers, that the Postal Service could have spent about
$29 million less for MTE in FYs 2008 and 2009. In addition, if comprehensive controls
are established to account for and safeguard MTE assets, the Postal Service could
better ensure that only needed MTE is purchased in the future. (See Appendix C for our
calculation of the questioned costs.) Further, we estimate that about $897 million in
MTE assets are at risk of loss, theft, and misuse because of the control weaknesses.
These conditions also present a potential danger to public safety and security and
reflect poorly on the Postal Service’s brand and public image.10 See Appendix D for our
calculation of the assets at risk.

MTE National Policies and Enforcement

Postal Service Headquarters has not developed, updated, nor reinforced adequate and
comprehensive national MTE policies. Specifically, Postal Service Headquarters issued
national MTE policy and guidelines delineating headquarters, area, plant, and mailer
responsibilities for MTE, which are contained in the POM, Chapters 57 through 59, and
Postal Handbook PO-502, Container Methods. However, the national MTE policies
have not been fully developed and updated11 to reflect the existing Postal Service
operating environment or operational requirements. Additionally, Postal Service
Headquarters needs to take steps to ensure compliance in the field with all aspects of
national MTE policy, including audits of MTE at mailers.

10
   The essence of the Postal Service brand is customer perception and the control and management weaknesses
above could pose a high risk for the public to negatively perceive the Postal Service’s ability to properly manage,
account for, and protect its assets.
11
   Based on our discussions with Postal Service officials, it is estimated that the policies have not been updated in
nearly 20 years.




                                                           11
Management of Mail Transport Equipment -                                                   NL-AR-10-009
 National Analysis



Key MTE responsibilities for Postal Service Headquarters are to:

      Ensure that an adequate national inventory of MTE exists and is properly
       managed.

      Establish procedures for the reporting of empty MTE inventories.

      Develop MTE purchase requirements.

      Coordinate with the field and enforce compliance with MTE policy.

      Establish guidelines for MTE audits of MTE operations and inventory levels at
       Postal Service facilities and mailers.

We found that Postal Service Headquarters did not always monitor or enforce area
compliance with national MTE policies. As we reported in our prior audits, area DNOs
did not always ensure compliance with national MTE policies covering inventory and
accountability processes nor ensure MTE assets were always safeguarded. Further,
Postal Service Headquarters has not monitored and enforced area compliance with
critical MTE requirements, such as taking on-hand MTE volume counts; establishing
accountability of MTE by tracking and reconciling MTE loaned to mailers; conducting
audits of MTE at mailers and Postal Service facilities; and establishing policy to
safeguard all MTE.




                     Postal Service pallets used as bumpers to prevent wall damage
                     due to forklift traffic at the Santa Clarita P&DC, January 8, 2009.


MTE Data and Limited Visibility

The Postal Service does not have a comprehensive nationwide system for identifying,
counting, and tracking all MTE to provide for adequate visibility and to support area and
local oversight responsibilities. Further, the Postal Service does not have consistent,
standardized, and universal collection of MTE use and inventory data within Postal
Service facilities and at mailers. As such, Postal Service headquarters does not have
comprehensive information (i.e., MTESC network, facility and mailer data) for



                                                     12
Management of Mail Transport Equipment -                                                              NL-AR-10-009
 National Analysis


forecasting and determining MTE purchase requirements annually. As a result, we
estimate the Postal Service could have avoided spending about $14.5 million annually
($29 million total) for MTE in FYs 2008 and 2009.

Although there is no nationwide comprehensive system in place for identifying,
counting, and tracking MTE, we determined that the Postal Service does have some
visibility of MTE through the existing EIRS and the Mail Transport Equipment Support
System (MTESS). However, these systems provide only limited visibility. In addition, the
Postal Service has undertaken efforts to identify control weaknesses and to develop an
automated management system to improve its visibility and control over MTE. However,
action has not yet been taken to address the control weaknesses and implementation of
an automated MTE management system, which is on hold.

On-hand Volume Count Process. The Postal Service can partially compensate for its
lack of comprehensive MTE data and limited visibility by requiring MTE on-hand volume
counts at Postal Service facilities and mailers. The Postal Service initially established a
requirement for on-hand volume counts to enable the control and management of MTE
by redistributing MTE from areas with a surplus to areas with a deficit. Postal Service
headquarters determined that on-hand volume counts were no longer necessary with
the implementation of the MTESC network around 1997, and decided to rely on data
provided by the MTESC network for visibility into the MTE program.12 However, Postal
Service officials stated the MTESC network only accounts for a small percentage of
MTE, and there is limited visibility of MTE outside of the MTESC network. Thus, the
Postal Service concluded that they need an automated inventory management solution
for tracking MTE at facilities and mailers.

MTESS. Postal Service headquarters’ only visibility of MTE inventory is the MTESS.
However, MTESS is limited in that it only tracks inventory physically in the possession
of the MTESCs and does not provide visibility of MTE at facilities, with mailers and other
customers, or in-transit. Although MTESS provides very limited visibility, it is the tool
Postal Service headquarters uses to forecast and determine MTE purchase
requirements annually.

Recent changes to the Postal Service’s MTE handling policy will further reduce the
amount of MTE processed by the MTESC network, thereby further narrowing the Postal
Service’s visibility obtained through MTESS. On November 9, 2009, the Postal Service
issued a SOP covering the “reuse” of MTE at plants (processing facilities) and post
offices (delivery units). The Postal Service stated that a critical component of the
MTESC network reengineering is having plants and post offices “stack and reuse” MTE
(such as letter trays, flat tubs, and sleeves). The stated goal of the SOP is to reduce the
MTESC network’s processing of these types of MTE by 50 percent. The instructions for

12
   Some Postal Service areas, including the Pacific Area, still require on-hand inventory counts because of the
limitations of the MTESC network inventory system. Further, the Postal Service is considering the reestablishment of
the requirement for on-hand volume counts nationwide until an automated MTE management solution is developed
and fully operational.




                                                         13
Management of Mail Transport Equipment -                                                                   NL-AR-10-009
 National Analysis


plants and post offices are for them to retain a week’s inventory of specified MTE types
and reuse this MTE rather than returning it for processing. Further, only damaged MTE
or MTE in excess of the weekly needs of the facility, its customers, or other supported
postal facilities should be returned to the processing facility or MTESC network, as
applicable. As such, the Postal Service has and will continue to purchase more MTE
than needed, because it does not have visibility of MTE at facilities and mailers and
cannot ensure that only MTE needed to support operational requirements is purchased.

Asset Management Integration (AMI) Initiative. Recognizing opportunities to improve its
planning and requirements analysis for all assets, including MTE, the Postal Service’s
Supply Management group undertook the AMI initiative in November 2005. The goal of
AMI was to improve the management of inventory and assets, including MTE, to
enhance service and reduce costs. The AMI analysis concluded the following as it
relates to MTE:

        Demand planning and supply planning processes were either manual or did not
         exist.

        Technology improvement opportunities existed, including implementing an
         inventory management solution for tracking MTE that is not at MTESCs (for
         example, tracking MTE at facilities and mailers), and implementing a demand
         planning solution to assist in forecasting and data gathering of MTE
         requirements.

        The Postal Service could reduce MTE purchase costs by 10 to 20 percent
         annually through MTE management by improving MTE planning and reducing
         procurement costs.

Although the AMI identified significant control weaknesses corrective action resulting
from the initiative has not yet been taken or implemented.

Automated MTE Management System. To address its continued lack of MTE inventory
management, controls, and visibility, Postal Service Headquarters has been exploring
an automated MTE management system. One option being explored is the MTEOR
system,13 and a more recent option is the SEAM system.14 Whether the Postal Service
pursues MTEOR, SEAM, or some other form of an automated MTE management
system, the planned functionality should include tracking MTE at Postal Service facilities
and mailers, reconciliation of MTE loaned to mailers, and a requirement to include

13
   The Postal Service started exploring the development of the MTEOR system in FY 2008. The Postal Service put the
MTEOR system initiative on hold in April 2009 because of the Postal Service’s financial condition. The Postal Service
re-initiated development of the MTEOR system in FY 2010, but is now looking at other system options.
14
   SEAM is a commercial-off-the-shelf application designed to provide centralized asset and warehouse capacity
tracking and visibility. It will provide the Postal Service with functional modules that support fulfillment, planning, and
service management of all Postal Service inventory and assets. Phase I of SEAM will be implemented over a 3-year
period starting in FY 2009. The Postal Service is currently looking at whether SEAM should be expanded to cover the
needed MTE tracking and reconciliation information.




                                                            14
Management of Mail Transport Equipment -                                        NL-AR-10-009
 National Analysis


recording of MTE on-hand volume at plants and mailers. The Postal Service’s planned
automated MTE management system has been delayed, leading to continued limited
visibility into MTE internally and at mailers, and resulting in continued purchase of MTE
in excess of what is needed to support operations.

MTE Management and Monitoring

Areas do not have sufficient resources to monitor the management of MTE in the field
or at mailers and to ensure appropriate compliance with national MTE requirements.
The Postal Service’s eight areas, through their DNOs, are responsible for ensuring
compliance with Postal Service MTE policy at the field level. The area DNOs are
required to provide guidance to the facilities and each facility is responsible for daily
management of its MTE, ensuring compliance with all national policies. Further, the
area DNOs are responsible for conducting and monitoring MTE use at mailers and
facilities, including conducting audits.

We concluded from our audits of the Pacific and the Eastern areas that the
management and oversight over the MTE was ineffective. The facility managers did not
always provide sufficient priority, resources, training, and oversight. In addition,
management did not assign sufficient resources to monitor MTE activities and
compliance with POM requirements and fully address all necessary controls over MTE.
We confirmed the lack of oversight during our fieldwork. For example, we observed or
were advised of the potential unauthorized possession and improper use of Postal
Service MTE by other external parties, including

      One company that had about 250 Postal Service plastic pallets in its yard, that
       were exposed to elements. It appeared from the company type that there was not
       an authorized use of the pallets, and the Postal Service subsequently recovered
       the pallets.

      A national trucking company was picking up plastic pallets for a national retailer.
       Postal Service officials stated they were advised that a retailer was using the
       pallets to transport merchandise from its main distribution center to some of its
       retail stores. Over a 6-month period, the transportation company went to the
       plant at least five times to pick up anywhere from 500 to 900 pallets.

The area DNO offices are unable to manage and monitor compliance of MTE due to the
lack of dedicated resources to oversee these responsibilities. The POM identifies in
section 587.1 that Area Mail Transport Equipment Specialist position was established to
ensure compliance with all aspects of MTE policy at the field level. These positions -
one in each area - would provide guidance to the DNOs and other field units in all
aspects of the MTE Program. These positions have been abolished by headquarters for
a number of years now, and no other position was established to oversee these MTE
responsibilities. Further, with recent reductions in DNO staffing due to the Postal
Service’s financial position, areas have to assign these MTE responsibilities to a




                                            15
Management of Mail Transport Equipment -                                       NL-AR-10-009
 National Analysis


reduced staff as collateral duties. In addition, headquarters’ did not ensure these duties
and responsibilities were assigned or absorbed by another position within the area
DNO’s office.




                                            16
Management of Mail Transport Equipment -                                                            NL-AR-10-009
 National Analysis


                                 APPENDIX C: MONETARY IMPACT

                 Finding                  Impact Category                              Amount
                    1              Unrecoverable Questioned Costs15                  $29,058,088

The OIG identified $29,058,088 in unrecoverable questioned costs as calculated in the
table below.

                              Table 1: Questioned Cost Calculations

        Description                         2008                   2009                     Total
MTE Purchases                             $72,347,418             $72,943,023             $145,290,441
(excluding Postal Paks16)
Estimated percentage of                             20%                      20%                      20%
avoidable MTE purchases
Questioned Costs                          $14,469,484             $14,588,604               $29,058,088


We calculated the unrecoverable questioned costs based on the following methodology
and assumptions:

        We identified, through Postal Service’s Supply Management purchase data, total
         MTE purchases for the last two complete fiscal years, covering 2008 and 2009.

        We relied on the Postal Service’s analysis and estimate of the percentage of
         avoidable MTE purchases annually from its AMI project if comprehensive
         controls were in place to enhance MTE asset management and prevent MTE
         from being lost or misused. We used the AMI project’s 20 percent estimate even
         though the actual percentage of avoidable purchases for some MTE categories,
         such as plastic pallets, is significantly more than 20 percent because of the
         ongoing issues with leakage. Our use of the AMI 20 percent estimate resulted in
         a more conservative questioned cost amount than if we considered the actual
         leakage rate for some categories, such as plastic pallets.

        Although we did not consider the additional AMI costs covering MTESC network
         handling, processing and transportation costs related to the purchase of MTE in
         excess of operational requirements, the Postal Service recognized that there
         were additional MTE-related costs and, therefore, additional MTE savings
         opportunities.

        Postal Paks and other cardboard containers have been removed from our
         calculation of total purchased MTE and will be addressed in a separate audit.
15
 Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
16
 The Postal Service uses cardboard boxes of varied sizes and strength specifications to process and transport mail.
One type of cardboard box is the Postal Pak which is typically used by Network Distribution Centers.




                                                        17
        Management of Mail Transport Equipment -                                                               NL-AR-10-009
         National Analysis



                                        APPENDIX D: NON-MONETARY IMPACT

                              Finding                  Impact Category                          Amount
                                 1                      Assets at Risk17                      $897,254,288
                                 1                    Goodwill/Branding18                                0


        The OIG identified $897,254,288 in assets at risk as calculated in the table below.

                                          Table 2: Assets at Risk Calculations

                                                             Low Risk         Useful Life     Condemnation          Total Potential
                   Category                  MTE            Deduction         Deduction          Deduction          Assets at Risk
Multi-Purpose Mail Containers (A)19        $239,897,617                 $0              $0                   $0         $239,897,617
Over-the-road containers (A)                221,124,880                  0                0                   0          221,124,880
              20
Pallets (B)                                 270,069,844                  0     48,733,139            3,900,257           217,436,449
Trays/Tubs (B)                              159,791,151       31,754,971       48,230,064            1,354,024             78,452,092
Hampers (A)                                  51,431,832                  0                0                   0            51,431,832
Other (Con-Cons, Carts) (A & B)             185,228,884      132,380,017        1,507,000              964,334             50,377,533
Wire Containers (A)                          38,533,885                  0                0                   0            38,533,885
Sacks (B)                                    48,800,250       48,800,250                $0                   $0                   $0
Sleeves (B)                                  25,582,547       25,582,547                  0                   0                       0
                                                      21
Total Potential Assets at Risk          $1,240,460,890      $238,517,784      $98,470,203           $6,218,615          $897,254,288


        We calculated the assets at risk based on the following methodology and assumptions:

                      The Postal Service classifies annual MTE purchases as an expense for financial
                       reporting purposes. However, the Postal Service considers MTE as an
                       operational asset for non-accounting purposes since it is “an item the Postal
                       Service must purchase and inventory for the fulfillment of external or internal
                       customer needs.”

                      We identified assets at risk as being the estimated value of all MTE by type,
                       including rolling stock. To accomplish this, we gathered purchase data from FYs
                       1999 through 2010. As rolling stock was not generally purchased in the last 12
        17
           Assets that are at risk of loss because of inadequate internal controls.
        18
           An actual or potential event or problem that could harm the reputation of the Postal Service.
        19
           Source (A) - quantity information was obtained from scans of unique Surface Visibility (SV) bar codes for 1year. SV
        is a technology system that enables the tracking of mail volume between processing plants by scanning bar -coded
        rolling stock and other MTE.
        20
           Source (B) - information was obtained from MTE purchase data
        21
           The total assets were estimated by reconstructing the data during our audit review due to limitations and
        insufficient records at the Postal Service. We estimated the value of purchased MTE over the last 12 years to be
        $688,202,441 based on a review of available purchase data. Additionally, we estimated the “rolling stock” inventory to
        be about $552,258,449 based on an analysis of Surface Visibility equipment bar code scans over a 12-month period.




                                                                 18
Management of Mail Transport Equipment -                                         NL-AR-10-009
 National Analysis


       years, we estimated the value of rolling stock by collecting unique scanned bar
       code data from Surface Visibility.

      In determining what percentage of MTE purchases were at risk, we removed
       items, which exceeded their useful life, and items we considered to have low risk
       of loss, theft, or misuse. To be conservative in our estimate of assets at risk, we
       also reduced our calculated total by a condemnation percentage, which is based
       on the amount of equipment the MTESCs remove from service each year due to
       being damaged or beyond service life.

      Postal Paks have been removed from our calculation of total purchased MTE and
       will be addressed in a separate audit.

      Based on our audit observations on MTE misuse and misappropriation, Postal
       Service experience with MTE “leakage” and the Inspection Service’s asset
       recovery projects, we consider all assets in at risk categories to be at risk of loss,
       theft, or misuse.




                                             19
Management of Mail Transport Equipment -                  NL-AR-10-009
 National Analysis


                              APPENDIX E: MTE FLOWCHART




                                           20
Management of Mail Transport Equipment -                   NL-AR-10-009
 National Analysis


                       APPENDIX F: MANAGEMENT’S COMMENTS




                                           21
Management of Mail Transport Equipment -        NL-AR-10-009
 National Analysis




                                           22
Management of Mail Transport Equipment -        NL-AR-10-009
 National Analysis




                                           23
